IN THE SUPREME COURT OF
PENNSYLVANIA - WESTERN DISTRICT
No. 59 WM 2020
JEAN COULTER, Petitioner
v.
PHILIP A. IGNELZI, TIMOTHY P.
O’REILLY, RONALD W. FOLINO,
TONY BAGNATO, JAMIE L. LENZI,
CIPRIANI & WERNER
AND DAVID N. WECHT, Respondents
ORDER
PER CURIAM
AND NOW, this 31st day of July, 2020, the
Application form Leave to File Original Process is
GRANTED, and the Petition for Writ of Mandamus
is DENIED. The Prothonotary is DIRECTED to
strike the names of the jurists from the caption.
Justice Wecht did not participate in the
consideration or decision of this matter.
A True Copy Patricia Nicola
As of 07/31/2020
Attest: Patricia Nicole
Chief Clerk
Supreme Court of Pennsylvania

la.

IN THE COURT OF COMMON PLEAS OF
ALLEGHENY COUNTY, PENNSYLVANIA
CIVIL DIVISION - No. GD-15-002176
JEAN COULTER, Plaintiff,
vs.
PHILIP A. IGNELZI, TIMOTHY P. O’REILLY,
RONALD W. FOLINO, TONY BAGNATO, JAMIE L.
LENZI, CIPRIANI & WERNER, and DAVID N.
WECHT, Defendants.
MEMORANDUM ORDER DENYING PLAINTIFF’S
MOTION FOR RECONSIDERATION.
This matter comes before this Court on
Plaintiff Jean Coulter's Motion for Reconsideration of
this Court's Memorandum Opinion and Order dated
December 17, 2015. In her Motion for
Reconsideration, Plaintiff Coulter asserts the
following grounds:
I. (a) Whether this Court's ruling on
Defendants' Preliminary Objections "was
without notice ... and is also in direct violation
of Local Rules land. Case Law which makes
Preliminary Objections moot when an
amended complaint is filed."
Plaintiff Coulter's initial premise is
unfounded. Plaintiff filed her original Complaint on
February 2, 2015, an Amended Complaint on March
31, 2015, and a Second Amended Complaint on May
II, 2015. Thereafter, Plaintiff Coulter filed a Third
Amended Complaint on June 22, 2015, a Fourth
Amended Complaint on August 6, 2015, a Fifth
Amended Complaint on September 22, 2015, a Sixth
Amended Complaint on November 3, 2015, and a
Seventh Amended Complaint on December 23, 2015.
Defendants Cipriani & Werner, PC and Lenzi
filed Preliminary Objection I— Motion to Dismiss
2a.

Pursuant to Rule 233.1 on March 6, 2015 to the
original Complaint and, on April 16, 2015, filed an
identical Preliminary Objection to the Amended
Complaint.
Defendant Bagnato filed both a Motion to
Dismiss Pursuant to Pa. Civ. Proc. 233.1 and
Preliminary Objections on March 6, 2015 to the
original Complaint and, on April 21, 2015, filed
an identical Preliminary Objection to the Amended
Complaint.
Defendants Ignalzi, O'Reilly, Folino, and
Wecht filed Preliminary Objections March 3, 2015
to the original Complaint; and, on June 2, 201 5, filed
Amended Preliminary Objections to the Amended
Complaint, asserting in paragraph 13, that Plaintiff
Coulter's Amended Complaint should be "dismissed
pursuant to Pa.R.C.P. 233.1
Because all of the Defendants had raised the
Pa.R.C.P. 233.1 issue, by Order of Court, dated
May 15, 2015, this Court directed "that argument on
Defendants' Motions pursuant to Pa.R.C.P. 233.1
shall be held on June 10, 2015 at 10:00 a.m."
Plaintiff Coulter and counsel for all of the
Defendants appeared at the June 10, 2015 oral
argument and presented oral argument restricted to
whether Plaintiff Coulter's Complaints should
be dismissed pursuant to Pa.R.C.P. 233.1.
(b) Whether "even if the court was scheduled to
be ruling on Preliminary Objections, the action
violates Rules of Court which permit
Amendment of the Complaint 'as of course.' So,
this ... judge has ruled on a moot set of
Preliminary Objections and therefore on non­
issues."

3a.

As noted above, as of December 23, 2015,
Plaintiff Coulter has filed an original Complaint
and seven Amended Complaints. Plaintiff Coulter
asserts that her Amended Complaints rendered
moot the Preliminary Objections the Defendants
filed to previous Complaints; and, therefore,
there are no viable preliminary objections upon
which a court can rule. If Plaintiff Coulter's
analysis is correct, she can foreclose any court
decision by continuingly and timely filing
amended complaints. However, this novel
proposition is not correct. The entry of the May 15,
2015 Order of Court scheduling "argument on
Defendants' Motions pursuant to Pa.R.C.P. 233.1 "
essentially "froze" the pleadings until such time as
this Court could rule upon the propriety of the
pending objections and none of Plaintiff Coulter's
Amended Complaints could resolve the procedural
Rule 233.1 issue.
Therefore, Plaintiff Coulter's first series of
issues are without merit.
2. Whether this Court failed to consider
Plaintiff Coulter's argument that "Rule 233.1
violates the Pennsylvania Constitution — as it
obviously abridges and/or modifies Coulter's
Rights to access the courts to settle disputes."
The Pennsylvania Supreme Court is the
ultimate arbiter of whether various statutes, rules,
regulations, etc. violate the Pennsylvania
Constitution. Pa.R.C.P. 233.1, entitled "Frivolous
Litigation. Pro Se Plaintiffs. Motion to Dismiss," was
approved by and adopted by the Supreme Court of
Pennsylvania. Plaintiff Coulter has not provided a
scintilla of legal authority in support her position
that Pa.R.C.P. 233.1 violates the Pennsylvania
4a.

Constitution. Without substantial legal authority,
this Court is not inclined to determine that actions of
the Pennsylvania Supreme Court are
unconstitutional.
Therefore, Plaintiff Coulter's second issue is
without merit.
3. Whether "the [December 17, 20151 Order
drastically exceeds the ’sanctions' permissible
by Rule 233.1."
Pa.R.C.P. 233.1 (c) provides,
Upon granting the motion and dismissing the
action, the court may bar the pro se plaintiff
from pursuing additional pro se litigation
against the same or related defendants raising
the same or related claims without leave of
court."
In its December 17, 2015 Order, this Court
directed that:
[Plaintiff Coulter be] ENJOINED from
instituting any pro se civil action (including
but not limited to filing writs of summons,
complaints, praecipes for lis pendens, etc.) in
any Court of Common Pleas in the
Commonwealth of Pennsylvania or in any
Magisterial District Court in the
Commonwealth of Pennsylvania until such
time as:
(a) She obtain the written consent of a judge of
a court of competent jurisdiction after having
presented to said judge a written request,
under oath or affirmation, setting forth with
specificity and particularity the facts to be
pled, the cause of action, and naming the
parties proposed to be named as defendants...
5a.

Presumably, Plaintiff Coulter views the abovequoted portion of this Court's December 17, 2015
Order as a "sanction"; however, she has again
provided no legal authority in support of her
position. To the contrary, this Court views the abovequoted portion of the Order as merely implementing
Pa.R.C.P. 233.1 (c).
Therefore, Plaintiff Coulter's third issue has
no merit.
4. (a) Whether this Court's decision imposed
upon Plaintiff Coulter "an obligation to fund
2 'Bonds' without any basis in Statute, Case
Law or Rule of Court to authorize this new
'modification' of Coulter's Rights of access to
the courts.
Plaintiff Coulter has misconstrued this
COUNS December 17, 2015 Order, which in
pertinent part, provided:.
(a) She obtain the written consent of a judge of
a court of competent jurisdiction after having
presented to said judge a written request,
under oath or affirmation, setting forth with
specificity and particularity the facts to be
pled, the cause of action, and naming
the parties proposed to be named as
defendants; or,
(b) She file a Cash Bond in the amount of
$10,000 with the prothonotary of a court of
competent jurisdiction and venue in the form
attached to this Order; or,
(c) She file a Bond with Corporate Surety in
the amount of $10,000 with the prothonotary
of the court of competent jurisdiction and
6a.

venue in the form attached to this Order, said
Corporate Surety being authorized to do
business in the Commonwealth of
Pennsylvania.
As apparent from the above-quoted language,
if a plaintiff has been barred from filing pro se
proceedings pursuant to the provisions of Rule 233.1,
he or she cannot proceed with another pro se
litigation without "leave of court." Since "leave of
court" is not a defined term, in the exercise of its
discretion, this Court fashioned three methods for
the pro se plaintiff to obtain "leave of court:"
(a) Obtain the written consent of a judge; or,
(b) Post a $10,000 Cash Bond; or,
(c) Post a $10,000 Surety Bond.
If "leave of court," as specified in Rule 233.1
(c), meant only the "consent of court," this Court
could merely have allowed Plaintiff Coulter to obtain
the consent of a court as specified in alternative (a).
However, in an effort to afford Plaintiff Coulter
greater latitude, this Court provided that she could
post either a Cash Bond or a Surety Bond — the
choice being hers — in order to institute pro se
litigation. Thus, this Court has provided an advance
automatic "leave of court" so as to permit her to
institute pro se litigation without the necessity of
contacting a judge.
Therefore, this Court fails to understand
Plaintiff Coulter's objections of how she is
prejudiced by being permitted to post either a Cash
Bond or a Surety Bond in addition to obtaining
consent of court.
(b) Whether "the 'Bonds' at $10,000.00 each —
provide no manner which the funds will
7a.

be released back to Coulter or provide another
use for the funds which the Court has illegally
be [sic] paid by Coulter."
In the December 17, 2015 Order, this Court
provided examples of a Cash Bond and a Surety
Bond, both of which contained the following
language:
Upon the conclusion of the above matter, if I,
as the principal, pay all costs of litigation,
interest, counsel fees, and damages as may be
awarded by any court of competent
jurisdiction for the reason that the I, as
principal, filed pleadings that are frivolous,
dilatory, obdurate, vexatious, vindictive,
harassing, in bad faith, obstructive of the
administration of justice, or dismissed
pursuant to Rule 233.1(a) of the Pennsylvania
Rules of Civil Procedure, then this obligation
shall be void; otherwise it shall remain in full
force.
Thus, if a court directs Plaintiff Coulter to pay
litigation costs, interest, counsel fees, or damages,
and she pays those court-ordered amounts, the
conditions of the Bond are satisfied, and Plaintiff
Coulter is released from her obligation and the funds
of the Cash Bond are returned to her. Conversely, if
Plaintiff Coulter fails to pay those court-ordered
amounts, the Bond is available to satisfy her
obligations.
(c) Whether "by requiring prior approval for all
civil actions (even ones which are not
involving anyone who is part of the 'Justice
System'), the Court has essentially, altered the
Statute of Limitations for Coulter, (since the
case cannot be filed until after any bogus
8a.

decision is overturned — making the statute
[of] limitation approximately 6 months at the
longest for all claims except Breach of Contract
— an obvious abridgment of Coulter's right to
access the courts!"
As discussed earlier, Rule 233.1 (c) permits
the Court to require "leave of court" for a pro se
plaintiff to institute a legal action. Plaintiff Coulter
suggests that the "leave of court" provision of Rule
233.1 (c) is violative of her rights because it may
permit a statute of limitations to expire during the
time she is attempting to comply with Rule 233.1 (c)
— thus resulting in a deprivation of her rights. This
is merely a rephrasing and restatement of the issue
addressed in Issue 2, supra, — that Rule 233.1
results in a deprivation of constitutional rights.
Again, this Court in not inclined to determine that
the action of the Pennsylvania Supreme Court in
approving and adopting Rule 233.1 was
unconstitutional, even in Plaintiff Coulter's
speculative scenario.
Therefore, Plaintiff Coulter's fourth series of
issues are without merit.
5. Whether "the Court failed to find that the
Claims had been previously 'considered and
Resolved' as is required by Case Law (the same
case as the Court cited) — likely because the
Judge noticed that Defendants had made no
argument in this respect and indeed, there is
none. The Court also had to ignore the decision
by Senior Judge Wettick, which Coulter
presented in Oral Argument, which specifically
finds that when a period of time has passed
between the events which precipitated the

9a.

Civil Actions, they cannot be considered
'related'."
Senior Judge Wettick issued Orders on
November 12, 2014 and January 26, 2015 in
Coulter v. Levenson, GD-14-001506, Allegheny
County; each Order dismissing Plaintiff Coulter's
lawsuits against specific individuals pursuant to
Rule 233.1. Nowhere did Senior Judge Wettick define
"related parties" or "related claims." Instead, Senior
Judge Wettick merely barred Plaintiff Coulter from
instituting "litigation against these defendants
raising any claims that in any way arise out of or
have any connection with the court proceedings
resulting in Coulter's imprisonment and termination
of her parental rights."
Obviously, this prohibition did not prevent
Plaintiff Coulter from filing the instant action.
Decisions rendered by Senior Judge Wettick are
frequently considered authoritative; however, due to
judicial parity, they are neither precedential nor
binding upon this Court. Therefore, this Court was
not legally compelled to adopt any alleged
conclusions of Senior Judge Wettick.
Thus, Plaintiff Coulter's fifth issue has no
merit.
6. (a) Whether "Defendants have criminally
released info [sic] from sealed Adoption
Records, and the Court has illegally done so as
part of a civil and criminal conspiracy against
these criminals!"
Whether any of the above-named Defendants
released protected information contrary to the
penal laws of this Commonwealth is not an issue in
the above-captioned case.

10a.

(b) Whether this Court abused its discretion
when it considered "documents whose filing
constitutes the commission of a crime — much
less quote those same sealed facts!"
This Court found it necessary to review
Plaintiff Coulter's approximately two dozen prior
lawsuits in order to determine if there was any
interconnectedness of her numerous lawsuits, i.e.,
"related parties" and "related claims." In its
December 17, 2015 Memorandum Opinion, this
Court described facts alleged in Plaintiff Coulter's
complaints filed in those previous lawsuits,
and to facts and conclusions found in the opinions
filed by the Judges presiding over her prior
lawsuits. At no time did this Court review any
pleadings filed by Plaintiff Coulter's various
adversaries in those prior cases. Thus, the
individuals to whom Plaintiff Coulter refers are
either she or the various state and federal judges
who have presided over her prior lawsuits. It is
inconceivable that Plaintiff Coulter considers these
judges or herself as "criminals." 1 Without specifying
the "documents" to which she objects, Plaintiff
Coulter concludes that this Court committed an
abuse of discretion because disclosure of the contents
of those "documents" constitutes a crime.
Plaintiff Coulter's sixth issue is without merit.
7. Whether this Court "stated multiple false
facts, but most glaring is the statement that the
Superior Court agreed that all of the cases
presented related claims and related
defendants. Indeed, nothing could be further
from the truth. Coulter placed most emphasis
on the fact that O'Reilly was serving his
"temporary judicial service" in clear violation
11a.

of Pennsylvania Statute and he therefore
completely lacked jurisdiction!
(Essentially, Coulter's Oral Argument was
eliminated at the eleventh hour, so planned
Oral Argument concerning the issue of
relatedness, etc. was found to be waived (an
obviously biased decision).
Plaintiff Coulter believes that this Court, in its
December 1 7, 2015 Memorandum Opinion, relied
upon "multiple" unspecified "false facts." The only
specific example cited by Plaintiff Coulter was this
Court's statement "that the Superior Court agreed
that all of the cases presented related claims and
related defendants." Specifically, on page 17 of its
Memorandum Opinion, this Court concluded:
Clearly, however, the Superior Court agreed
with Sr. Judge O'Reilly that all of the cases
subject to his Dismissal Order involved
"related parties" and "related actions." Just as
the two dozen or so cases that have preceded
the case sub judice and were dismissed
It is inconceivable that Plaintiff Coulter considers these
1
judges or herself as ' ’criminals."

pursuant to Pa.R.C.P. 233.1(a), this Court is
likewise compelled by the rules and applicable
law to dismiss this case.
Plaintiff Coulter believes that the Superior
Court was not given the opportunity to hear
argument on this issue "Essentially, Coulter's Oral
Argument was eliminated at the eleventh hour, so
planned Oral Argument concerning the issue of
relatedness, etc. was found to be waived ... [by the
Superior Court]." Despite this assertion, in Coulter v.

12a.

Ramsden, 2015 PA. Super. 27, 583 WDA 2013 (2015),
the Superior Court stated, "With regard to Coulter's
claim that the trial court improperly dismissed
Coulter's complaint pursuant to Pa.R.C.P. 233.1, we
conclude that her argument similarly lacks merit."
Coulter then reasserts her belief that Senior
Judge O'Reilly had no authority to decide her
prior cases because, in her argument before the
Superior Court, she "placed most emphasis on the
fact that O'Reilly was serving his 'temporary judicial
service' in clear violation of Pennsylvania Statute."
This Court fails to understand how the objectionable
actions of the Superior Court or Senior Judge
O'Reilly in prior cases have any bearing in the case
subjudice,
8. Thus, Plaintiff Coulter's seventh issue is
without merit. Based on the extreme bias
present in both Senior Judge O'Reilly and
Senior Judge Reed, it is apparent that the
"temporary judicial service" itself assures a
biased court and is therefore violate the Due
Process Clause the United States Constitution,
as the status of Senior Judges are particularly
vulnerable to pressures from fellow jurists —
due to their day-to-day and/or month-to-month
employment status.
The Pennsylvania Judicial Code defines a
"Judge" as including a justice of the Supreme
Court and a senior judge. 42 Pa.C.S.A. 102. The
Judicial Code further provides for the assignment of
Judges:
4121. Assignment of judges
(a) General rule.—Subject to general rules
any judge may be temporarily assigned to
another court and may there hear and
13a.

determine any matter with like effect as if
duly commissioned to sit in such other court,
(b) Senior judges.—A senior judge may, with
his consent, be assigned on temporary judicial
service pursuant to subsection (a).
42 Pa.C.S.A. 4121
Because Senior Judge O'Reilly, Senior Judge
Wettick, and the undersigned Senior Judge Reed
have issued rulings adverse to Plaintiff Coulter, this
fact is proof that "Senior Judges are particularly
vulnerable to pressures from fellow jurists — due to
their day-to-day and/or month-to- month
employment status." A fortiori, the use of Senior
Judges "violates the Due Process Clause the United
States Constitution." Plaintiff Coulter provides no
legal authority to support her proposition that the
above-cited provisions of Pennsylvania's Judicial
Code relating to Senior Judges are unconstitutional
as violative of due process.
Therefore, there is no merit to Plaintiff
Coulter's final issue.
ACCORDINGLY, it is ORDERED that
Plaintiff Coulter's Motion for Reconsideration is
DISMISSED without oral argument or briefs for the
reason that none of the issues raised by Plaintiff
Coulter have any merit.
BY THE COURT:
John C. Reed, Senior Judge
Specially Presiding
Dated: January 26, 2016

14a.

IN THE COURT OF COMMON PLEAS OF
ALLEGHENY COUNTY, PENNSYLVANIA
CIVIL DIVISION - No. GD-15—002176
JEAN COULTER, Plaintiff,
vs.
PHILIP A. IGNELZI, TIMOTHY P. O'REILLY,
RONALD W. FOLINO, TONY BAGNATO,
JAMIE L. LENZI, CIPRIANI & WERNER,
and DAVID N, WECHT, Defendants.
MEMORANDUM OPINION and ORDER
This matter comes before this Court on
Defendants’ Preliminary Objections to Plaintiffs
(“Coulter”) Complaint. In order to understand the
context of Coulter’s Complaint, it is necessary to
review briefly the history of other cases leading up to
Coulter filing her present Complaint.
BACKGROUND
Coulter has tiled numerous lawsuits against
many individuals and organizations, both in
the Common Pleas Courts of this Commonwealth
and the US District Courts in Pennsylvania. With
the exception of pending lawsuits, all of Coulter’s
lawsuits have been dismissed or quashed by the
respective courts, and when appealed, the appellate
courts have either affirmed the decisions of the trial
courts or quashed the appeals. Coulter's various
lawsuits stem from a criminal action and a
termination of her parental rights, both occurring in
Butler County. The background of Coulter’s lawsuits
was briefly explained in Coulter v. Ramsden, 2014
PA Super 127, 94 A.3d 1080, reargument denied
(Aug. 4, 2014). appeal denied, 110 A.3d 998 (Pa.
Super 2014) :
We summarize the protracted history of this
case as follows.' This matter stems from

15a.

Coulter's 2007 plea of “no contest” and
imprisonment for the crime of aggravated
assault against her minor daughter in the
Butler County Court of Common Pleas. Butler
County Children and Youth Services became
involved, and court proceedings related to the
minor child were initiated.* These resulted in
the termination of Coulter's parental rights on
January 12, 2011.
Prior and subsequent to filing the instant
matter, Coulter filed multiple complaints in
Allegheny County against persons and entities
involved in the Butler County proceedings.
Coulter has also filed numerous and
duplicative appeals with this Court over the
past several years. (See, e.g, In the Interest of
A.C, 47 A.3d 1242 (Pa.Super.2012); Wilder &
Mahood, P.C. v. Coulter, 46 A.3d 824
(Pa.Super.2012); In re Adoption, of A.S.C., 38
A3d 927 (Pa.Super.2011) (unpublished
memorandum); In re Adoption of A.C., 23 A.3d
584 (Pa.Super.2010) (unpublished
memorandum); In re A.C., 23 A.3d 576
(Pa.Super.2010) (unpublished memorandum)).
Coulter claims that the termination
proceedings in Butler County were unjust;
that various persons conspired to deprive her
of her rights, and that she is entitled to
monetary relief in excess of $200,000,000.00.
She has also claimed civil rights violations.
In addition, Coulter initiated multiple
actions in the United States District Court for
the Western District of Pennsylvania prior
Footnotes in Coulter v. Ramsden:

16a.

1 We note that there are six other related appeals
before this panel. Nos. 582 WDA 2013, 584 WDA 2013,
585 WDA 2013, 586 WDA 2013, 678 WDA 2013, and
679 WDA 2013. These appeals have been decided in
separate Memoranda filed concurrently with this
Opinion.
2 James Mahood represented Coulter through May of
2009. On June 12, 2009, Deborah Erbstein, Esquire,
and Todd Zwikl,, Esquire, entered their appearances on
Coulter's behalf. However, on December 15, 2009,
Erbstein's and Zwikl's requests to withdraw from
representation were granted. On April 6, 2010, Joan
Shoemaker, Esquire, entered her appearance for
Coulter, and she was permitted to withdraw on April
13, 2010. On May-17, 2010, Stephanie Anderson,
Esquire, and Mary Suzanne Ramsden, Esquire, entered
their appearances on Coulter's behalf. On August 4,
2010, Christine Gale, Esquire, substituted her
appearance as counsel of record. When Coulter was not
represented by counsel in the Butler County matters,
she proceeded pro se. Judge Doerr presided over the
custody action which ultimately resulted in the
termination of Coulter's parental rights to her daughter
in 2011. Dennis McCurdy. Esquire, was counsel for
Butler County Children and Youth Services. Susan
Lope, Esquire, and Elizabeth Smith, Esquire,
represented Coulter's daughter as court appointed
counsel and Guardian ad Litem, respectively, Rochelle
Graham is a caseworker at Butler County Children and
Youth Services.

to filing this matter in state court. These
actions arose out of the same Butler County
proceedings. The federal court defendants
were sued due to their participation in the
proceedings and Coulter's alleged injuries
resulting from her dissatisfaction with the
results of those proceedings. All of Coulter's
federal complaints were dismissed with
prejudice by the United States District Court.

17a.

The United States District Court found
Coulter to be a vexatious litigant and
prohibited her from filing additional civil
actions relating to or arising from the state
court proceedings involving her criminal
conviction and the subsequent termination of
her parental rights. See Coulter v. Ramsden,
et al., 2012 WL 6592597 (W.D. Pa. 2012).
Id. 94 A.3d 1082-83.
COULTER’S CASES PRECEEDING AND
FOLLOWING THE CASE SUB JUDICFA
Prior to instituting the above-captioned action,
Coulter had instituted a couple dozen lawsuits in the
state and federal courts against many individuals,
agencies, governmental personnel, frequently the
same individuals. A detailed examination of these
state and federal court proceedings is too voluminous
to describe in body of this Opinion; however, a
chronological detailed listing of some of Coulter’s
state and federal lawsuits are set forth in Appendix
“A” to this Opinion.
THE ABOVE-CAPTIONED ACTION
Coulter filed her Complaint in the abovecaptioned action on February 9, 2015. Construing
the averments in Coulter’s Complaint in a light most
favorable to her, Coulter alleges that certain events
occurred while she was pursuing the case of Coulter
v. Allegheny County Bar Association (“the ACBA"2 see Appendix “A,” Case #9, hereafter the “Coulter v.
ACBA”) against Judge Doerr (the Butler County
judge presiding over the dependency and termination
proceedings), Attorney Mahood, (Coulter's former
counsel), Wilder & Mahood (Attorney Mahood's Law

18a.

1 During oral argument in the above-captioned case, Coulter
strenuously objected to Defendants counsel referring to her
prior criminal conviction, issues involving her child, or her
history of litigation.
2 Note: Bolded Italized individuals, agencies, and organizations
later became defendants named in Coulter’s numerous civil
actions.

firm), Attorney Rothey (Chairperson of the ACBA’s
Fee Dispute Committee), Attorney Avalli (a
member of the ACBA’s Fee Dispute Committee ),
Attorney Long (a member of the ACBA s Fee
Dispute Committee), the ACBA (the parent
organization of the Fee Dispute Committee) and. the
Pennsylvania Bar Association (“the PBA ).
Coulter v. Allegheny County Bar Association, et.
al.,585 WDA 2013 (2013) — see Case #14 in
Appendix “A.”
(a)
When she filed Preliminary Objections Based
on Questions of Fact on December 11, 2012, she
requested to have a hearing scheduled at least 90
days later according to the rules of civil procedure. A
motions clerk for the Allegheny County Courts, Tony
Bagnato (a Defendant herein), ignored her request,
and instead scheduled her Preliminary Objections
on Questions of Fact to be heard on January 28;
2013, contemporaneously with the Defendants
previously filed Preliminary Objections.
(b)
The Hon. Philip A. Ignalzi (a defendant
herein), a Judge of the Allegheny County Court of
Common Pleas normally assigned to the Criminal
Division, was on temporary assignment with the
Court’s Civil Division.
(c)
The Hon. Ronald W. Folino (a Defendant
herein), the Administrative Judge of the Court's

19a.

Civil Division, assigned Judge Ignalzi to preside over
Coulter v. ACBA.
(d)
The ACBA was represented by the law firm of
Cipriani & Werner (a Defendant herein), its lead
attorney being Jamie Lenzi, Esq. (a Defendant
herein).
(e)
When Coulter asked Attorney Lenzi if a judge
was assigned to preside over Coulter v. ACBA,
Attorney Lenzi, knowing that Judge Ignalzi had been
assigned, misrepresented to Coulter that no judge
had been assigned yet. When Coulter later learned
that Judge Ignalzi was assigned to preside over
Coulter v. ACBA and confronted Attorney Lenzi, who
explained that that there was no problem and that
Judge Ignazi was transferred from the
Court’s Criminal Division to the Civil Division to
alleviate a case backlog in the Civil Division.
(f)
Upon learning that Judge Ignalzi had
previously served on the ACBA’s Board of
Governors, Coulter filed a Recusal Motion,
requesting that Judge Ignalzi recuse himself.
Subsequently, Judge Ignalzi did recuse himself and
“personally hand-selected and assigned” Senior
Judge Timothy P. O’Reilly (a Defendant herein) to
preside over Coulter v. ACBA,
(g)
On February 8, 2013, Sr. Judge O'Reilly
entered an Order dismissing Coulter v. ACBA. In
the Dismissal Order, Sr. Judge O’ Reilly stated:
... upon consideration of Defendants’, James
Mahood, Brian McKinley and Wilder &
Mahood, Motion to Dismiss Pursuant to
Pennsylvania Rule of Civil Procedure 233.1
and Brief in Support thereof, it is hereby
ORDERED, ADJUDGED, and DECREED that

20a.

. said Motion is GRANTED, and Coulter’s
Complaints in the above-captioned matters
are dismissed with prejudice. Coulter [is]
barred
from pursuing additional pro se litigation
raising the same or related claims.3
(h)
On March 7, 2013, Coulter appealed Sr. Judge
O’Reilly’s Dismissal Order to the Pennsylvania
Superior Court, the case being assigned to a panel of
judges consisting of the Hon. Jacqueline O. Shogan,
the Hon. Judith F. Olson, and the Hon. David N.
Wecht. During oral argument, Judge Wecht
attempted “to convince [Coulter] that [Judge Ignelzi]
was acting within appropriate parameters when
[Judge Ignelzi] personally hand-selected [Sr. Judge
O'Reilly as] his replacement.”
On June 20, 2014, the Superior Court affirmed
(i)
Sr. Judge O’Reilly’s Dismissal Order, and after
denial of her Application for Reconsideration, Coulter
filed a Petition for Allowance of Appeal with the
Pennsylvania Supreme Count, which Petition was
denied on December 10, 2014.
On February 9, 2015, Coulter filed her
O')
Complaint in the above-captioned claiming:
3 This Dismissal Order was also entered in the cases of Coulter
vs. Susan Lope, Elizabeth Smith, James Mahood, Wilder &
Mahvod, Unknown Clerk in the Office of Butler County Clerk of
Orphans’ Court, Office of Butler County Clerk of Orphans’
Court and Thomas Doerr at Case No. G.D. No. 12-24620; and
Coulter vs. Allegheny County Bar Association, James E.
Mahood, Wilder & Mahood, Melanie S. Rothey, Charles J.
Avalli, Louis C. Long, the Pennsylvania Bar Association, and
Thomas J. Doerr at Case No. 12-12905.
In the former case, a Motion for Dismissal was filed by
Defendants Unknown Clerk in the Office of Butler County
Clerk of Orphans’ Court, Office of Butler County Clerk of

21a.

Orphans’ Court. In addition, Defendants Lope and Smith filed
Preliminary Objections to Coulter's Complaint in the nature of
a Motion to Dismiss; and Defendant Doerr also filed
Preliminary Objections to Coulter’s Complaint in the nature of
a Motion to Dismiss.
In the latter case, Defendants Mahood, McKinley and Wilder &
Mahood filed Preliminary Objections to Coulter's Complaint in
the nature of a Motion to Dismiss. In addition, a Motion for
Dismissal was also filed by Defendants Rothey, Avalli, Long,
the Pennsylvania Bar Association, and the Allegheny County
Bar Association.

Defendant Bagnato was familiar with
(1)
Coulter's litigation history and attempted to subvert
her Preliminary Objections Based on Questions of
Fact by failing to schedule a hearing thereon in
accordance with the Pennsylvania Rules of Civil
Procedure, and Defendant Bagnato’s actions were at
the direction of a member or members of the
Allegheny County judiciary. Therefore, by his
actions, Defendant Bagnato joined with the other
Defendants herein in conspiring to injure Coulter by
defeating her claims in Coulter v. ACBA.
Defendant Folino deliberately appointed
(2)
Defendant Ignalzi to preside over Coulter v.
ACBA knowing that Defendant Ignalzi had a conflict
of interest having served on the ACBA’s Board of
Governors and was therefore predisposed to enter
rulings adverse to Coulter. Thus through his actions,
Defendant Folino joined the other Defendants herein
in conspiring to injure Coulter by defeating her
claims in Coulter v. ACBA.
Defendant Lenzi, as counsel for the ACBA,
(3)
knew or should have known through members of her
law firm, Cipriani & Werner, that Defendant Ignalzi
had served as a member of the ACBA’s Board of
Governors and that he was predisposed to rule in

22a.

favor of the ACBA. With knowledge of these facts,
Lenzi first told Coulter that no judge had been
appointed to preside over Coulter v. ACBA, and later
tried to convince Coulter that there was nothing
inappropriate in Defendant Ignalzi presiding over
Coulter v. ACBA. Therefore, by her actions,
Defendant Lenzi, and by extension her law firm,
joined the other Defendants herein in conspiring to
injure Coulter by defeating her claims in
Coulter v. ACBA.
(4)
When Defendant Ignalzi entered his Recusal
Order and recommended that Coulter v. ACBA be
reassigned to Defendant O'Reilly, he knew that
Defendant O’Reilly was predisposed to make rulings
adverse to Coulter. Therefore, by his actions,
Defendant Ignalzi joined the other Defendants
herein in conspiring to injure Coulter by defeating
her claims in Coulter v. ACBA case.
(5)
During oral argument before the Superior
Court, Defendant Wecht assured Coulter that
Defendant Ignalzi acted appropriately “when, he
selected Defendant O’Reilly to preside” over Coulter
v. ACBA. By his actions, Defendant Wecht joined
with the other Defendants herein in conspiring to
injure Coulter by defeating her claims in Coulter v.
ACBA.
(6)
Coulter asserts that her claims set forth in
Coulter v. ACBA (Case #14 in Appendix “A”)
were meritorious, but that she never had the
opportunity to prove those claims due to the
concerted efforts of the Defendants herein.
(7)
Coulter asserts that the Defendants herein,
acting in concert with each other, injured her
(a) by committing fraud, (b) by breaching a contract,
(c) by breaching an implied contract, (d) by harassing

23a.

her, (e) inflicting emotional distress upon her, (f) by
violating her civil rights under color of law, and (g)
inflicting personal injuries upon her by commission
of a crime and abuse of process.
(8)
In her claim for relief, Coulter requests
damages of five hundred million dollars
($500,000,000.00).
PROCEDURAL HISTORY
OF THE CASE SUB JUDICE
All of the Defendants herein have filed
Preliminary Objections to Coulter’s Complaint
claiming, inter alia, that Coulter filed her Complaint
in violation of Sr. Judge Wettick’s Dismissal Orders
of November 12, 2014 and January 26, 2015 entered
in Coulter v. Levenson (see Case #4 in Appendix “A”);
and in violation of Sr. Judge O’Reilly’s Dismissal
Order of February 8, 2013 entered in Coulter v.
ACBA (Case #14 in Appendix “A”), and that the
Complaint should be summarily dismissed pursuant
to Rule 233.1(a) of the Pennsylvania Rules of Civil
Procedure, Pa. R.C.P. 233.1 (a).
On April 15, 2015, the Hon. Jeffrey A.
Manning, President Judge of the Allegheny
County Court of Common Pleas entered an Order
recusing the entire Bench of the Allegheny County
Courts and requesting that the Pennsylvania
Supreme Court assign the above-captioned case to
another judge. On April 20, 2015, Zygmont A. Pines,
Court Administrator of Pennsylvania, recommended
that Sr. Judge John C. Reed, a retired judge from
Mercer County, be assigned to preside over the
above-captioned case, and on that same date, the
Hon. Thomas G. Saylor. Chief Justice of
Pennsylvania appointed Sr. Judge Reed to preside
over the above-captioned case pursuant to Rule

24a.

701(C)(2) of the Pennsylvania Rules of Judicial
Administration, Pa. R.J.A. 701(C)(2).
On May 15. 2015, Sr. Judge Reed (hereinafter
“this Court,” unless otherwise specified) entered a
Scheduling Order directing that argument on the
Defendants’ Motions pursuant to Rule 233.1(a) be
held on June 10, 2015 and established a briefing
schedule, to wit. Defendants’ briefs were due on or
before May 29, 2015 and Coulter’s brief was due on
or before June 8, 2015. Briefs and oral argument
were instructed to address the applicability of
Pa.R.C.P. 233.1(a). At oral argument, Coulter
appeared pro se and the Defendants appeared by
counsel.
Ancillary to these proceedings, Coulter had
also filed the following motions that do not require
argument or a hearing and may be disposed of at this
time:
(a) A Motion for a Change of Venue filed on
May 28, 2015, similar in nature to a change
of venire seeking to have a commissioned
(elected) judge from another county, rather
than a senior judge, be appointed to preside
over the above-captioned action, and that
the above-captioned action be transferred to
that judge’s home county; and,
(b) A Motion for Recusal filed on June 3, 2015,
seeking to have Sr. Judge Reed recuse
himself.
DISCUSSION OF LAW AND ALLEGED FACTS
Defendants have submitted that Coulter’s
above-captioned action should be dismissed
because it is violative of Sr. Judge Wettick’s
Dismissal Orders entered on November 12, 2014

25a.

and January 26, 2015 in Coulter v. Levenson (Case
#5 in Appendix “A”’). The November 12, 2014
Dismissal Order states that “Jean Coulter Is barred
from pursuing ... litigation against this defendant
[Asst. District Attorney Christine Studeny, Esq.]
raising any claims [related to Coulter’s
imprisonment and termination of her parental
rights]. Coulter submits that this November 12, 2014
Dismissal Order is not applicable in the abovecaptioned case because she is not pursuing litigation
against Studeny in the case sub judice.
Sr. Judge Wettick’s January 26, 2015
Dismissal Order in Coulter v. Levenson states,
“Jean Coulter is barred from pursuing in any
Pennsylvania state court, without leave of court... |
litigation against these defendants raising any
claims that in any way arise out of or have any
connection with court proceedings [resulting in
Coulter’s imprisonment and termination of her
parental rights].”” Coulter likewise submits that this
January 26, 2015 Coulter v. Levenson Dismissal
Order is not applicable because she is not pursuing
litigation against either Forrest or Hoerner in the
above-captioned case.
It is difficult to construe the phrase “these
defendants” refers to all of the defendants in
that case when the subjects of the Dismissal Order
were only Parole Agent Forrest and Agent
Supervisor Hoerner. Since neither Forrest nor
Hoerner are named as defendants in the abovecaptioned action, there appears to be logic to
Coulter's positions—that Sr. Judge Wettick’s two
Dismissal Orders do not preclude Coulter from
pursuing the above-captioned action.

26a.

Defendants also submit that Coulter's abovecaptioned action should be dismissed because it is
violative of Pa. R.C.P. 233.1(a) and Sr. Judge
O’Reilly’s February 8, 2015 Dismissal Order in
Coulter v. ACBA, Rule 233.1 provides:
Rule 233.1. Frivolous Litigation. Pro Se
Coulter. Motion to Dismiss
(a) Upon the commencement of any action
filed by a pro se plaintiff in the court of
common pleas, a defendant may file a motion
to dismiss the action on the basis that
(1) the pro se plaintiff is alleging the
same or related claims which the pro se
plaintiff raised in a prior action against
the same or related defendants, and
(2) these claims have already been
resolved pursuant to a written
settlement agreement or a court’
proceeding.
(b) The court may stay the action while the
motion is pending.
(c) Upon granting the motion and dismissing
the action, the court may bar the pro se
plaintiff from pursuing additional pro se
litigation against the same or related
defendants raising the same or related claims
without leave of court.
(d) The court may sua sponte dismiss an
action that is filed in violation of a court order
entered under subdivision (c).
(e) The provisions of this rule do not apply to
actions under the rules of civil procedure
governing family law actions.
Pa.R.C.P. No. 233.1

27a.

Sr. Judge O’Reilly’s Dismissal Order entered
on February 8, 2013 in Coulter v. ACBA (Case #14 in
Appendix “A”) states, “Coulter [is] barred from
pursuing additional pro se litigation raising the same
or related claims.”
It is not disputed that Coulter is acting pro se
in the above-captioned action, and therefore is
subject to the provisions of the three above-quoted,
Dismissal Orders and Pa.R.C.P. Rule 233.1(a).
It is not alleged that Coulter is suing the
“same defendants” in the above-captioned action.
Coulter has never previously filed suit against the
Defendants Bagnato, Folino, Lenzi, . Cipriani &
Werner, Ignalzi, O'Reilly, or Wecht.
There is some dispute whether Coulter is
alleging the “same claims” raised in prior actions
because in several of Coulter’s prior actions, she has
also claimed that the defendants therein “conspired
to deprive Coulter of her rights, breach of contract,
fraud, etc.” However, the basis of Coulter’s claims of
“breach of contract, fraud, etc.” are alleged to have
arisen through the conduct of those defendants
named in those prior law Suits, not the conduct of
the Defendants herein. Therefore, a strict
construction of the “prior claims” provision would
lead to the conclusion that the claims raised in the
above-captioned action are not the same claims
raised in these prior cases.
Since they are not the “same defendants” nor
the “same claims,” Coulter’s instant action is not
“frivolous” under Rule 233.1(a) — unless the
Defendants herein are “related defendants” and the
claims herein are “related claims” as argued by
Defendants.

28a.

There appear to be only two cases that
previously discussed this provision. In Gray v.
Buonopane, 53 A.3d 829 (2012), former homeowners,
acting pro se, filed three (3) suits against a real
estate agency, a lender, and others arising out of
property lockout following a foreclosure sale and
alleged removal of personal property. The
homeowners filed four (4) amended complaints
throughout the course of the litigation asserting
claims for negligence, trespass to real property,
replevin, trespass to personal property, conversion,
conspiracy, fraudulent misrepresentation, and
sought declaratory judgment as ancillary relief.
The trial court, per Judge Allan L. Tereshko,
dismissed all of the homeowners’ complaints under
Pa.R.C.P. 233.1(a). Finding that the homeowners’
actions were “related and grew out of the prior
foreclosure action” against the homeowners, the trial
judge entered an order barring the homeowners, as
pro se plaintiffs, from filing, without prior leave of
court, new actions against the named defendants for
the same claims or claims related to those addressed
in the foreclosure action. The homeowners appealed
to the Superior Court, and in a case of first
impression, the Court had the opportunity to
examine the history and purpose of Rule 233.1.
Rule 233.1 was promulgated by our Supreme
Court in 2010 to stem a noted increase in
serial lawsuits of dubious merit filed by pro
se litigants disaffected by prior failures to
secure relief for injuries they perceived but
could not substantiate. See Pa.R.C.P. 233.1
Comment. Accordingly, the drafting committee
constructed the Rule with attention to
potential manipulation of the legal process by

29a.

those not learned in its proper ‘use, seeking to
establish accountability for pro se litigants
commensurate with that imposed upon
members of the Bar. See id Thus, the Rule
operates to spare potential defendants the
need to defend spurious claims, first, by
allowing the expeditious dismissal of
duplicative pro se actions and, second, by
empowering the trial court to ban the pro se
litigant's commencement of further actions
against such defendants. See id.
Following scrutiny of the Rule's text, we
discern the extent of our Supreme Court's
intent in the Rule's allowance of summary
proceedings for dismissal substantially less
exacting than those required by the Rules of
Court for counseled actions, as well as the
absence from the language of any of the
elements encompassed under the doctrines of
res judicata1 and collateral estoppel.2 The
Rule's language is noteworthy, specifically, in
its omission of any reference to existing
procedures under the Rules for obtaining
judgment prior to trial, see, e.g., Pa.R.C.P.
1028(a)(4) (Preliminary Objections
(Demurrer)), 1034 (Judgment on the
Pleadings), 1035.2 (Summary Judgment).
Indeed, the very fact that Rule 233.1 was
promulgated in the presence of this series of
rules and procedures, that by design tests
every aspect of the legal and factual merit of a
plaintiffs claim, announces the Supreme
Court's focus and intent with exceptional
clarity. Quite simply, the Court saw no reason

30a.

to expose already beleaguered defendants to
the demands of extended
litigation and the rigor of technical procedural
rules for summary disposition when the claims
at issue have already been addressed in a
substantive manner and resolved.
As noted by the drafting committee, the
Rule allows that [u]pon the filing of an action
by a pro se plaintiff, a defendant may file a
motion to dismiss a pending action provided
that (1) the pro
“Footnotes in Gray v. Buonopane:
1 The doctrine of res judicata will preclude an action
where the former and latter suits possess the following
common elements: (1) identity of issues: (2) identity in
the cause of action; (3) identity of persons and parties to
the action; and (4) identity of the capacity of the parties
suing or being sued.” Daley v. A.W. Chesterton, Inc.,
614 Pa. 335, 37 A.3d 1175, 1189-1190 (2012) (quoting/n
the Matter of lulo, 364 Pa. 205, 766 A.2d 335, 337
(2001)).
2 Collateral estoppel applies if four elements are
present:
(1) An issue decided in a prior action is identical to the
one presented in a later action;
(2) The prior action resulted in a final judgment on the
merits;
(3) The party against whom collateral estoppel is
asserted was a party to the prior action, or is in privity
with a party to the prior action; and
(4) The party against whom collateral estoppel is
asserted had a full and fair opportunity to litigate the
issue in the prior action. Columbia Medical Group, Ine.
v. Herring & Roll. P.C.. 829 A.2d 1184, 1190
se plaintiff is alleging the same or related claims

against the same or related defendants, and
(2) the claims have already been resolved

31a.

pursuant to a settlement agreement or a court
proceeding. Pa.R.C.P. 233.1 Comment.
Contrary to [Plaintiffs’] suggestion,
neither the language of the Rule nor the
explanatory comment mandate the technical
identity of parties or claims imposed by res
judicata or collateral estoppel: rather, it
merely requires that the parties and the
claims raised in the current action be ‘“related
” to those in the prior action and that those
prior claims have been “resolved.” Pa.R.C.P.
233.1(a). These two terms are noteworthy in
their omission of the technical precision
otherwise associated with claim and issue
preclusion; whereas parties and/or claims are
to be “identical” under the purview of those
doctrines, Rule 233.1 requires only that they
be sufficiently related to inform the trial court,
in the exercise of its discretion, whether the
plaintiffs claim has in fact been considered
and “resolved.” The drafting committee's
recourse to the word “resolved” in this context
is equally significant. In the Rule's
requirement that the matter have been
“resolved pursuant to a written settlement
agreement or a court proceeding,” the
language assures that the pro se litigant is
availed of a chance to address his claim
subject to the contractual guarantee of a
settlement agreement or to the procedural
safeguards that attend a court proceeding. It
does not require, however, that the matter has
progressed to a “final judgment on the merits,”
Columbia Medical Group, Inc., 829 A.2d at
1190, nor does it require the “identify of the

32a.

quality or capacity in the persons for or
against whom the claim is made[,]” Daley, 37
A.3d at 1189-90. In view of the circumstances
under which the rule was promulgated, “the
mischief to be remedied,” and the object to be
attained, see Pa.R.C.P. 127 (c). We find these
multiple omissions indicative of the manner in
which the Supreme Court intends Rule 233.1
to operate and dispositive of {[Plaintiffs’]
current actions.
Gray v. Buonopane, 53 A.3d 836-836.
The more recent case is Coulter’s own case,
Coulter v. Ramsden, 94 A.3d 1080 (2014) (Case #16
in Appendix “A”). As described previously in this
Opinion, this suit by Coulter accused the defendants
therein of depriving Coulter of her rights when
Ramsden and Anderson and their law firm, Raphael,
Ramsden & Behers, inter alia, failed to prevent
evidence critical of Coulter from being presented by
McCurdy, and by Judge Doerr refusing to give
credence to Coulter’s evidence in rendering his
decisions. This case added nothing to this discussion
because it merely quoted Gray when explaining the
history of Pa.R.C.P. 233.1.
It is obvious that Coulter has created a “daisy
chain,” each link being represented by another
lawsuit wherein that link references a prior lawsuit,
i.e. a previous link. For example, in the criminal case
(Case #1 in Appendix “A,” injra.), Judge Shaffer
sentenced Coulter on July 17, 2007. In that
proceeding. Commonwealth was represented by Asst.
D.A. Christine Studeny, Esq., and Coulter was
represented by Alexander H. Lindsey, Jr., Esq., later
by Sandra Anne Kozloski, Esq., later by Stanton

33a.

Levenson, Esq., and, still later by Sally Frick, Esq.
Coulter was serving a probationary sentence, her
probation officer being Thomas Forrest, his
supervisor being Dennis Hoerner, and the District
Supervisor being Thomas Eidenmutler, all of the
Pennsylvania Board of Probation and Parole.
The “daisy chain” is constructed thusly:
The First Chain - the First Link (a)
Commonwealth v. Coulter (Case #1 in
Appendix “A”): In her criminal case. Coulter
was represented by Attorney Lindsey, and
later by Attorneys Kozloski, Levenson, and
Frick. The Commonwealth was represented
by Asst. DA Studeny and the presiding Judge
was Thomas Shaffer. When the terms
of Coulter’s probation were changed, her
probation officer was Forrest, his supervisor
was Hoerner, and the Board's District
Supervisor was Eidenmuller.
The First Chain - the Second Link <b)
Coulter vs. Studeny (Case #3 in Appendix
“A”). In this Federal lawsuit, Coulter named
as defendants Jeremy Stewart, Hoerner,
Forrest, and Eidenmuller, Studeny, and
Shaffer claiming that the defendants had
violated her rights under Section 1983 when
they conspired to “resentence”™ her by
amending her probation to add a “no-contact”
provision.
The First Chain — the Third Link: —
(c)
Coulter v. Levenson (Case #5 in Appendix
“A”): Coulter filed suit in Allegheny County,
naming as defendants therein Shaffer.
Studeny, Forrest, Hoerner, Levenson, and
Frick claiming that these defendants

34a.

conspired to injure her by depriving her of her
rights, etc. Judge Folino assigned the case to
Judge /gnalzi, and upon recusal, Judge O’
Reilly was assigned to preside over this case.
Judge O’Reilly dismissed the case pursuant to
Pa.R.C.P. 233.1(a), which, upon appeal, was
affirmed by a panel of Superior Court Judges
that included Judge Wecht.
The Second Chain — the First Link —
(d)
In the Interest of A.C.. Coulter retained the
services of James E. Mahood, Esq. of the law
firm of Wilder & Mahood. Following a dispute
over legal fees, Attorney Mahood invoked the
binding arbitration provisions of the fee
agreement and the matter was submitted to
the Fee Dispute Committee of the ACBA, the
members being Attorneys Rothey, Avalli, and
Long, which rendered an award in favor of
Mahood.
The Second Chain ~ the Second Link —
(e)
Coulter v. ACBA (Case #14 in Appendix “A”):
Coulter filed a state court action against Doerr
(the Butler County judge overseeing In the
Interest of 4.C.), Mahood, Wilder & Mahood,
Rothey, Avalli, Long, the ACBA, and the PBA.
The ACBA was represented by Attorney Lenzi
of the law firm of Cipriani & Werner. Judge
Folino assigned the case to Judge /gnalzi,
and upon recusal. Sr. Judge O’Reilly was
assigned to preside over this case. During
the proceedings, Tony Bagnato, the Court’s
motions clerk, allegedly violated the Pa.R.C.P.
in scheduling a date for Coulter’s motion.
Later, Sr. Judge O'Reilly dismissed the case
pursuant to Pa.R.C.P. 233.1(a) and a panel of

35a.

Superior Court Judges that included Judge
Wecht affirmed the dismissal.
The Second Chain — the Third Link —
(f)
Coulter v. Mahood (Case #20 in Appendix
“A”): On January 10, 2013, Coulter filed a
state court action naming as defendant
therein Mahood, McKinley, Wilder & Mahood,
Butler CYS, Doerr, Graham, McCurdy, Smith,
Lope, Rothey, Avalli, Long, the PBA, and the
ACBA alleging that the defendants had
conspired to deprive Coulter of her rights, etc.
Judge Folino also assigned the case to Judge
Ignelzi, and upon recusal, Sr. Judge O’Reilly
was assigned to preside over this case. Sr.
Judge OReilly dismissed the case pursuant to
Pa.R.C.P. 233.1(a) and a panel of Superior
Court Judges that included Judge Wecht
affirmed the dismissal.
The Common Link between the Two
(g)
Chains — Coulter v. Bagnato, the case sub
judice: On February 9, 2015, Coulter filed the
above-captioned case naming as defendants
Bagnato O'Reilly Folino Ignalzi Lenzi,
Cipriani & Werner, and Wecht claiming that
during the pendency of Coulter v. ACBA and
Coulter v. Mahood, the defendants conspired
with each other to deprive Coulter of her
rights, etc.
In this manner, Coulter has fashioned and
tied together an elaborate chain of events, both
of which ultimately can be traced back to her
criminal proceedings or to the termination of her
parental rights. She has construed the conduct of
virtually everyone who has had any role in her

36a.

numerous cases as evidence of a common design and
conspiracy to cause her injury.
Each case filed by Coulter related to either her
criminal proceedings or the dependency and
termination of parental rights proceedings. Each
case filed by Coulter named as defendants
individuals and agencies involved in either her
criminal proceedings or the dependency and
termination of parental rights proceedings. All of
these cases and their progeny have been decided
adversely to Coulter.
Clearly, however, the Superior Court agreed
with Sr. Judge O’Reilly that all of the cases subject
to his Dismissal Order involved “related parties” and
“related actions.” Just as the two dozen or so cases
that have preceded the case sub judice and were
dismissed pursuant to Pa.R.C.P. 233.1(a), this Court
is likewise compelled by the rules and applicable law
to dismiss this case.
Change of Venue.
Coulter filed a Motion for a Change of Venue
Pursuant to Pa.R.C.P. 1006(d)(2) - Second Request
(“Motion for Change of Venue”). Essentially, Coulter
believes that senior judges are appointed to serve
counties on a “month-to-month” basis. As such,
senior judges are predisposed to issue rulings
favorable to that county or court system in which
they are appointed to serve. If they fail to do so, they
jeopardize future appointments. Coulter’s suggested
remedy is to have her case transferred to another
county (change of venue) so that a commissioned
(“elected”) judge could preside over her case.
Unfortunately, Coulter is mistaken in her
initial assumption. There are at least two types

37a.

of senior judge appointments, an assignment for a
specified period of time (i.e. daily, weekly, etc.) and a
case-specific assignment. It appears that Coulter's
experiences to date have involved senior judges in
the former category. Historically, Senior Judge
Wettick is appointed by the Supreme Court on a
month-to-month basis to serve as a Special Motions
Judge for the Allegheny County Courts. Sr. Judge
O’Reilly is customarily appointed by the Supreme
Court on a month- to-month basis to handle cases
expeditiously and avoid backups in caseloads in
Allegheny County.
As described previously, this Sr. Judge is a
retired judge from the Mercer County bench. Due to
the Allegheny County full-bench recusal, this Senior
Judge was appointed by the Chief Justice of the
Supreme Court to only preside over the abovecaptioned case, to wit. a case specific appointment
The Allegheny County judges do not appoint out-ofcounty senior judges, only the Supreme Court can do
this. The Allegheny County judges do not recommend
the appointment of out-of-county senior judges; the
Court Administrator of the Supreme Court
makes those recommendations.
Coulter also believes that some unspecified
pleadings she filed in the above-captioned case
and/or her other Allegheny County cases
mysteriously disappeared Coulter believes that a
change of venue would remedy this issue and would
result in all pleadings being filed in that reassigned
county. However, Coulter can protect herself against
the potential misfortune by simply obtaining “timedate stamped” copies of the pleadings at the time of
filing, and by filing a certificates of service. If the
document is not in the Prothonotary’s file, Coulter

38a.

has a time-date stamped copy to prove its filing. If an
opponent claims not have received a copy of the
document, the certificate of service verifies that a
copy was mailed to that opponent.
Coulter's Motion for Change of Venue is based
upon mistaken assumptions as to the manner senior
judges are appointed. It is also is based upon
allegations of missing documents that could occur
anywhere and which Coulter is able to protect
against. Nothing would be accomplished by having a
hearing on Coulter's Motion for Change of Venue. As
such, the Motion lacks merit and will be dismissed.
Motion for Recusal.
Coulter filed an Emergency Motion for Recusal
(“Motion for Recusal’), requesting that this Senior
Judge recuse himself from presiding over her case. In
. in paragraph 8 of her Motion for Recusal, Coulter
correctly asserts that Sr. Judge Reed was
instrumental in creating Mercer County’s Veterans
Court that was patterned, in large part, after the
previously established Butler County Veterans
Court. However, Coulter incorrectly asserts that, in
the process of creating a Veterans Court, Sr. Judge
Reed had consulted with President Judge Thomas
Doerr of the Butler County Courts. In fact, Sr. Judge
Reed consulted extensively with Judge Timothy
McCune, Butler County's Veterans Court Judge, but
has never had any discussions with President Judge
Doerr regarding Veterans Courts or any case, past or
present. Thus, this allegation is factually inaccurate.
In her Motion for Recusal, Coulter also alleges some
of the same reasons set forth in her Motion for
Change of Venue, supra, these reasons being rejected
by this Court. As such, this Motion also lacks merit
and will be dismissed.

39a.

IN THE COURT OF COMMON PLEAS OF
ALLEGHENY COUNTY, PENNSYLVANIA
CIVIL DIVISION
JEAN COULTER, Plaintiff,
No. GD-15-002176
vs.
PHILIP A. IGNELZI,
TIMOTHY P. O'REILLY,
RONALD W. FOLINO,
TONY BAGNATO,
JAMIE L. LENZI,
CIPRIANI & WERNER,
and DAVID N. WECHT,
Defendants.
ORDER
AND NOW, this 17" day of December 2015,
based upon the foregoing Memorandum Opinion, IT
IS HEREBY ORDERED as follows:
1. Plaintiff Jean Coulter's Motion for Change
of Venue Pursuant to Pa.R.C.P.1006(d)(2) is
DISMISSED without a hearing for the reason
that it is meritless.
2. Plaintiff Jean Coulter's Emergency Motion
for Recusal is DISMISSED without a hearing
for the reason that it is meritless.
3. All of Plaintiff Jean Coulter's Complaints
filed in the above-captioned case, Coulter
v. Bagnato, et. al., GD-15-002176, are hereby
DISMISSED.
4. Pursuant to Rule 233.1(a) of the
Pennsylvania Rules of Civil Procedure and the
above-captioned case, Coulter v. Bugnato, et.
al., GD-15-002176, is DISMISSED with
prejudice.

40a.

IT IS FURTHER ORDERED AND DECREED
that, pursuant to Rule 233.1(c) of the Pennsylvania
Rules of Civil Procedure, the Plaintiff, Jean Coulter,
is PERMANENTLY BARRED, PROHIBITTED, and
ENJOINED from instituting any pro se civil action
(including but not limited to filing writs of summons,
complaints; praecipes for lis pendens, etc.) in any
Court of Common Pleas in the Commonwealth of
Pennsylvania or in any Magisterial District
Court in the Commonwealth of Pennsylvania until
such time as:
(a) She obtain the written consent of a judge
of a court of competent jurisdiction after .
having presented to said judge a written
request, under oath or affirmation, setting
forth with specificity and particularity the
facts to be pled, the cause of action, and
naming the parties proposed to be named as
defendants; or,
(b) She file a Cash Bond in the amount of
$10,000 with the prothonotary of a court of
competent jurisdiction and venue in the form
attached to this Order; or,
(c) She file a Bond with Corporate Surety in
the amount of $10,000 with the prothonotary
of the court of competent jurisdiction and
venue in the form attached
to this Order, said Corporate Surety being
authorized to do business in the
Commonwealth of Pennsylvania.
For all purposes herein, the term
“prothonotary” shall mean the prothonotary of any
Common Pleas Court in the Commonwealth of
Pennsylvania. The term “court of competent

41a.

jurisdiction” shall mean that court having original
subject matter jurisdiction or any appellate
court thereof. The term “venue” shall mean that
county in which one or more events giving rise
to the cause of action occurred. The foregoing bar,
injunction, and prohibition shall not apply to
any cases previously instituted by the Plaintiff Jean
Coulter that are still pending and not yet
finally resolved.
The foregoing bar, injunction, and prohibition
shall not apply to any cases in which the Plaintiff,
Jean Coulter, is represented by and continues to be
represented by an attorney-at-law currently licensed
to practice law in the Commonwealth of
Pennsylvania who has entered his or her appearance
for the Plaintiff Jean Coulter at the time the Plaintiff
Jean Coulter instituted her action. No attorney-atlaw will be permitted to withdraw his or her
appearance until another attorney-at-law has
entered his or her appearance or the Plaintiff Jean
Coulter has complied with the pro se provisions of
this Order as set forth in paragraphs (a), (b), or (c),
above.
After obtaining either the written consent of a
court of competent jurisdiction or filing a Bond, the
pro se Plaintiff, Jean Coulter shall immediately
institute her action and make service upon the
opposing parties in accordance with the
Pennsylvania Rules of Civil Procedure and diligently
pursue said action.
IT IS FURTHER ORDERED that the Plaintiff
Jean Coulter is BARRED, PROHIBITTED, and
ENJOINED from instituting any pro se legal action
or filing any pro se pleadings in any state court that:

42a.

(a) Either name as a defendant therein any
individual, agency, organization, entity, judge,
or justice that Plaintiff Jean Coulter has
previously named as a defendant in any state
or federal court proceeding, including but not
limited to those parties identified in the
foregoing Memorandum Opinion and
Appendix “A” (“prior defendants’), or name as
a defendant therein any individual, agency,
organization, entity, judge, or justice that
have or had any relationship, direct or
indirect, to any “prior defendant” (“related
defendants”); and, :
(b) Either assert or allege any cause of action
or claim that Plaintiff Jean Coulter has
previously asserted or alleged in any state or
federal court proceeding, including but not
limited to those causes of action or claims
identified in the foregoing Memorandum
Opinion and Appendix “A” (“prior claims’), or
that assert or allege any cause of action or
claim that has or had any relationship, direct
or indirect, to any “prior claims” (“related
claims”).
IT IS FURTHER ORDERED that the Plaintiff
Jean Coulter is BARRED, PROHIBITTED. and
ENJOINED from instituting any legal action or
filing any pleadings, whether pro se or otherwise,
that are frivolous, dilatory, obdurate, vexatious,
vindictive, harassing, retaliatory, in bad faith, or
disruptive or obstructive to the orderly
administration of j ustice.
IT IS FURTHER ORDERED that in the event
Jean Coulter is found to be in willful violation of the

43a.

above injunction by any court of competent
jurisdiction, she may be held in contempt of court
and may be sanctioned with incarceration and
directed to pay all costs of litigation, interest, counsel
fees, and damages as may be awarded by said court
of competent jurisdiction to any party injured by or
suffering a loss or incurring expenses or fees as a
result of said conduct.
IT IS FURTHER ORDERED that the
Prothonotary of Allegheny County or any Magisterial
District Judge in Allegheny County shall, within one
business day, notify this Court, in writing, of any
civil actions filed, or attempted to be filed, by Jean
Coulter in violation of this Order.
IT IS FINALLY ORDERED that any Judge of
any Court of Common Pleas of the Commonwealth of
Pennsylvania or of other court of competent
jurisdiction may enforce the provisions of this Order,
including but not limited to dismissing legal actions
pursuant to Pa.R.C.P. 233.1(a), and imposing
sanctions such as incarceration and imposing and
awarding costs of litigation, interest, counsel fees,
and damages.
The Prothonotary of Allegheny County shall
forward a copy of this Order to the President Judge
of every judicial district in the Commonwealth of
Pennsylvania.
BY THE COURT:
John C. Reed, Senior Judge
Specially Presiding

44a.

Additional material
from this filing is
available in the
Clerk's Office.

